      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 31, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Diann M. Saltman/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicaid Payments for Services Provided Under New York’s
               Section 1915(c) Traumatic Brain Injury Waiver at Belvedere of Albany, LLC,
               From January 1, 2005, Through December 31, 2007 (A-02-09-01006)


Attached, for your information, is an advance copy of our final report on Medicaid payments for
services provided under New York’s section 1915(c) traumatic brain injury waiver at Belvedere
of Albany, LLC. We will issue this report to the New York State Department of Health within 5
business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov or James P. Edert, Regional
Inspector General for Audit Services, Region II, at (212) 264-4620 or through email at
James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01006.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
June 1, 2011

Report Number: A-02-09-01006

Nirav R. Shah, M.D., M.P.H.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Shah:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Services Provided Under
New York’s Section 1915(c) Traumatic Brain Injury Waiver at Belvedere of Albany, LLC, From
January 1, 2005, Through December 31, 2007. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-09-01006 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Nirav R. Shah, M.D., M.P.H.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF MEDICAID PAYMENTS FOR
    SERVICES PROVIDED UNDER
   NEW YORK’S SECTION 1915(C)
TRAUMATIC BRAIN INJURY WAIVER AT
   BELVEDERE OF ALBANY, LLC,
 FROM JANUARY 1, 2005, THROUGH
       DECEMBER 31, 2007



                       Daniel R. Levinson
                        Inspector General

                           June 2011
                         A-02-09-01006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid.

The New York State Department of Health (the State agency) administers the State’s Medicaid
program and provides oversight for compliance with Federal requirements. The State’s
traumatic brain injury (TBI) waiver program allows the State agency to claim Medicaid
reimbursement for HCBS provided to individuals with TBIs who would otherwise require
institutionalization in a nursing home.

The State agency’s Office of Long-Term Care administers the TBI waiver program through 10
contracted regional resource development centers (not-for-profit organizations) that serve
specific counties throughout the State. Under the TBI waiver program, each beneficiary is
required to have an individualized plan of care that, every 6 months, is reviewed by a regional
resource development specialist. As part of the plan-of-care review, the regional resource
development specialist must ensure that the beneficiary is assessed to need a nursing home level
of care by a State agency-certified assessor. The regional resource development specialist must
maintain documentation of each plan of care and assessment for at least 3 years.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $131 million for services provided by 212 providers under the TBI waiver program.
During this period, Belvedere of Albany, LLC (Belvedere), a TBI service provider, received
Medicaid reimbursement for 2,434 beneficiary-months totaling $11.9 million ($5.9 million
Federal share). A beneficiary-month includes all HCBS for a beneficiary for 1 month.
Belvedere provided TBI waiver program services in areas covered by regional resource
development centers in Schenectady and Queensbury, New York. (We refer collectively to these
organizations as “the centers.”)

OBJECTIVE

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for TBI waiver program services provided by Belvedere complied with certain Federal and State
requirements.




                                              i
SUMMARY OF FINDINGS

The State agency claimed Federal Medicaid reimbursement for some TBI waiver program
services provided by Belvedere that did not comply with certain Federal and State requirements.
Of the 100 beneficiary-months in our random sample, the State agency properly claimed
Medicaid reimbursement for all TBI waiver program services during 9 beneficiary-months. The
State agency claimed Medicaid reimbursement for services that were not allowable or were
potentially unallowable for the 91 remaining beneficiary-months. Specifically, services totaling
$92,539 (Federal share) in 64 beneficiary-months did not comply with Federal and State
requirements, and services totaling $123,516 (Federal share) in 35 beneficiary-months may not
have complied with Federal and State requirements. Of these 35 beneficiary-months, 8 also
contained services that were unallowable. Of the 64 beneficiary-months with services for which
the State agency improperly claimed Federal Medicaid reimbursement, 15 contained more than
1 deficiency.

Based on our sample results, we estimated that the State agency improperly claimed $1,555,291
in Federal Medicaid reimbursement for TBI waiver program services provided by Belvedere that
did not comply with Federal and State requirements during calendar years 2005 through 2007.
In addition, we estimated that the State agency claimed $2,087,622 in Federal Medicaid
reimbursement for services provided by Belvedere that may not have complied with Federal and
State requirements.

The claims for unallowable and potentially unallowable services were made because (1) the
centers did not ensure and document that all beneficiaries approved for services were assessed by
certified individuals and determined eligible for TBI waiver program services, (2) the State
agency did not ensure that the assessors and screeners properly evaluated beneficiaries for
placement in the TBI waiver program, and (3) Belvedere did not implement adequate internal
controls to ensure that it documented services billed and claimed reimbursement only for
allowable services.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,555,291 to the Federal Government;

   •   work with CMS to resolve the claims, totaling $2,087,622, for which Medicaid
       reimbursement may have been unallowable;

   •   require the centers to ensure and document that all beneficiaries approved for services
       have been assessed by certified individuals and are eligible for TBI waiver program
       services;

   •   provide adequate training to assessors on the Federal and State requirements for the TBI
       waiver program; and



                                              ii
   •   require Belvedere to ensure that it documents services billed and claims reimbursement
       only for allowable TBI waiver program services.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the State agency disagreed with our first recommendation
(financial disallowance), indicated that it would work with CMS to resolve our second
recommendation, and stated that it already had procedures in place to cover our remaining
recommendations. The State agency also disagreed with many elements of our findings and
requested that we provide information that it needed to review some of the claims related to our
first recommendation. Specifically, the State agency indicated that our interpretation of what
constitutes nursing facility level of care determinations did not consider all relevant information.
In addition, the State agency stated that we misinterpreted TBI waiver program requirements for
services provided in accordance with an approved plan of care. The State agency’s comments
appear in their entirety as Appendix D.

After reviewing the State agency’s comments on our draft report, we maintain that our findings
and recommendations are valid. We provided the information that the State agency requested in
order to review some of the claims related to our first recommendation.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .................................................................................................... 1
              Medicaid Program ....................................................................................... 1
              Home and Community-Based Services Waivers ........................................ 1
              New York’s Traumatic Brain Injury Waiver Program ............................... 1
              Belvedere of Albany, LLC .......................................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 3
               Objective ..................................................................................................... 3
               Scope ........................................................................................................... 3
               Methodology ............................................................................................... 4

FINDINGS AND RECOMMENDATIONS ................................................................... 5

          UNALLOWABLE SERVICES IN THE HOME AND
           COMMUNITY-BASED SERVICES WAIVER PROGRAM ............................ 6
              Services Provided to Beneficiaries Assessed Not To Qualify
                for Nursing Home Level of Care ............................................................. 6
              Services Not Provided in Accordance With an Approved Plan of Care..... 6
              Services Not Documented........................................................................... 7
              Assessments for Traumatic Brain Injury Waiver Program
                Conducted by Uncertified Individuals ..................................................... 7
              Assessment for Traumatic Brain Injury Waiver Program
                Not Documented ...................................................................................... 8

          POTENTIALLY UNALLOWABLE SERVICES IN THE HOME AND
           COMMUNITY-BASED SERVICES WAIVER PROGRAM ............................ 8

          CAUSES OF UNALLOWABLE AND
           POTENTIALLY UNALLOWABLE CLAIMS .................................................. 9

          RECOMMENDATIONS ........................................................................................ 9

          STATE AGENCY COMMENTS ........................................................................... 10

          OFFICE OF INSPECTOR GENERAL RESPONSE ............................................. 10




                                                                  iv
APPENDIXES

 A: SAMPLE DESIGN AND METHODOLOGY

 B: SAMPLE RESULTS AND ESTIMATES

 C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED BENEFICIARY-MONTH

 D: STATE AGENCY COMMENTS




                              v
                                        INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. The New York State Department of Health (the State
agency) administers the State’s Medicaid program and provides oversight for compliance with
Federal requirements.

Home and Community-Based Services Waivers

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid. HCBS are
generally provided to Medicaid-eligible beneficiaries in the community rather than in an
institutional setting.

Section 1915(c) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) provide that
HCBS waiver services may be provided only to recipients who have been determined would, in
the absence of such services, require the Medicaid covered level of care provided in a hospital,
nursing facility, or intermediate care facility for persons with mental retardation. Pursuant to
42 CFR § 441.301(b)(1)(i), HCBS must be furnished under a written plan of care subject to
approval by each State’s State agency. In addition, Federal regulations (42 CFR § 441.302(c))
require the State agency to provide for an initial evaluation of the recipient’s need for the level of
care that would be provided in an institution unless the individual receives the HCBS. The
regulations further require at least annual reevaluations of each recipient receiving HCBS.

Pursuant to section 4442.6 of the CMS State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. In addition, the plan of care must specify the medical and other services to be provided,
their frequency, and the type of provider. No Federal financial participation is available for
HCBS waiver services furnished without a written plan of care.

New York’s Traumatic Brain Injury Waiver Program

New York State’s waiver program for those with traumatic brain injury (TBI), the Home and
Community Based Services Medicaid Waiver for Individuals with Traumatic Brain Injury (TBI
waiver program), is administered by the State agency. The State agency’s Office of Long-Term
Care administers the TBI waiver program through 10 contracted regional resource development

                                                  1
centers, which serve specific counties throughout the State. The TBI waiver program allows the
State agency to claim Medicaid reimbursement on a fee-for-service basis for HCBS provided to
individuals with TBI who would otherwise require institutionalization in a nursing home. 1

Program Eligibility

Pursuant to the State’s waiver program agreement with CMS, to be eligible for the TBI waiver
program, a beneficiary must be a Medicaid recipient, have a diagnosis of TBI, be between the
ages of 18 and 64 on application to the waiver program, and be assessed to need a nursing home
level of care. According to the State’s waiver program agreement with CMS, the State agency
uses two forms, the Hospital and Community Patient Review Instrument (H/C-PRI) and the
Screen, to assess nursing home level of care. The H/C-PRI, which is to be completed by a
registered nurse, is a clinical tool used to assess a beneficiary’s condition. The Screen, which
may be completed by a social worker, discharge planner, or other professional with experience in
psychosocial assessments, is a referral tool used to assess the care and support available to the
beneficiary in the community setting.

The State agency contracts with a Quality Improvement Organization 2 to train and certify
individuals to complete the H/C-PRI and the Screen. On completion of the training program,
individuals receive an assessor number and a screener number verifying their ability to complete
each form. These individuals may be employed by TBI waiver program service providers or by
local social services districts.

Based on their responses to the H/C-PRI, beneficiaries are assigned to 1 of 16 Resource
Utilization Group II (RUG-II) groupings. Pursuant to Title 10, § 400.12, of the New York
Compilation of Codes, Rules, & Regulations (NYCRR), the 16 RUG-II groupings are used to
determine whether beneficiaries qualify for nursing home level of care. During our audit period,
beneficiaries assigned to 12 of the 16 RUG II groupings met the State’s requirements for nursing
home level of care. 3 Patients assigned to the four remaining groupings (Clinically Complex A,
Severe Behavioral A, Reduced Physical Functioning A, and Reduced Physical Functioning B)
were not considered qualified for nursing home level of care. 4

1
  Services offered under the State’s TBI waiver program include service coordination, respite, environmental
modifications, independent living skills, structured day programs, substance abuse programs, intensive behavioral
programs, community integration counseling, home and community support services, assistive technology, and
transportation.

2
 According to section 1862(g) of the Act, Quality Improvement Organizations were established for “the purposes of
promoting the effective, efficient, and economical delivery of health care services, and of promoting the quality of
services….”
3
 Specifically, beneficiaries assigned to the RUG-II groupings Special Care A, Special Care B, Heavy Rehabilitation
A, Heavy Rehabilitation B, Clinically Complex B, Clinically Complex C, Clinically Complex D, Severe Behavioral
B, Severe Behavioral C, Reduced Physical Functioning C, Reduced Physical Functioning D, and Reduced Physical
Functioning E were considered qualified for nursing home level of care.
4
 In November 2009, after our audit period, the State added these four groupings to its list of RUG-II groupings that
qualify for nursing home level of care (N.Y. Dept. of Health, Recently Adopted Regulations, PASRR Screen
Requirements (Nov. 4, 2009)).

                                                         2
Program Requirements

Pursuant to the State’s waiver program agreement with CMS, each TBI waiver program
beneficiary is required to have an individualized plan of care that, every 6 months, is reviewed
and approved by a regional resource development specialist (an employee of the resource
development center). The regional resource development specialist is responsible for reviewing
application packets, including eligibility decisions and plans of care. These specialists approve
eligibility decisions at the regional level, with technical oversight provided by State agency
management staff. In addition, State agency management staff review a minimum of 5 percent
of decision approvals per year.

A TBI service coordinator, who may be an employee of the TBI waiver program service
provider, prepares the individualized plan of care for the beneficiary. The service coordinator
ensures that the beneficiary is assessed as required and that the regional resource development
specialist reviews the assessment before approving the plan of care. The regional resource
development specialist must maintain documentation of each plan of care and level of care
assessment for at least 3 years.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $131 million for services provided by 212 providers under the TBI waiver program.

Belvedere of Albany, LLC

Belvedere of Albany, LLC (Belvedere), was the third largest provider of services under the
State’s TBI waiver program during calendar years 2005 through 2007. During this period,
Belvedere received Medicaid reimbursement totaling $11.9 million ($5.9 million Federal share).
Belvedere provided TBI waiver program services in areas covered by Sunnyview
Rehabilitation Hospital and Southern Adirondack Independent Living Center, regional resource
development centers in Schenectady and Queensbury, New York. (We refer collectively to these
organizations as “the centers.”)

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for TBI waiver program services provided by Belvedere complied with certain Federal and State
requirements.

Scope

Our review covered the State agency’s claims for Medicaid reimbursement for HCBS provided
by Belvedere under the TBI waiver program during calendar years 2005 through 2007. During
this period, the State agency claimed $11.9 million ($5.9 million Federal share) for services




                                                3
provided by Belvedere during 2,434 beneficiary-months. 5 We will be issuing a separate report
(A-02-09-01005) on TBI waiver service claims submitted by Venture Forthe, Inc., for the period
January 1, 2005, through December 31, 2007.

The scope of our audit did not require us to perform a medical review or an evaluation of the
medical necessity for the services that Belvedere provided and claimed for reimbursement.

We did not assess the State agency’s overall internal control structure. Rather, we limited our
review of internal controls to those applicable to our objective, which did not require an
understanding of all internal controls over the TBI waiver program. We reviewed Belvedere’s
and the centers’ internal controls for documenting services billed and claiming reimbursement
for TBI waiver program services. We did not assess the appropriateness of HCBS payment
rates.

We performed our fieldwork at Belvedere’s offices in Albany, New York, and at the centers in
Schenectady and Queensbury, New York.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State Medicaid HCBS waiver laws, regulations, and
        guidance;

    •   met with CMS financial and program management officials to gain an understanding of
        the HCBS waiver approval, administration, and assessment processes;

    •   met with State officials to discuss the State’s administration and monitoring of the TBI
        waiver program;

    •   interviewed Belvedere and the centers’ officials regarding their TBI waiver program
        policies and procedures;

    •   reconciled the TBI waiver program services that the State agency claimed for Federal
        reimbursement on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for
        the Medical Assistance Program, to the population of all payments for TBI services to
        providers statewide obtained from the State’s Medicaid Management Information System
        for the period January 1, 2005, through December 31, 2007;

    •   obtained from the State’s Medicaid Management Information System a sampling frame
        of 2,434 beneficiary-months with TBI waiver program services for which Belvedere
        claimed reimbursement totaling $11.9 million ($5.9 million Federal share) during the
        period January 1, 2005, through December 31, 2007;

5
 A beneficiary-month includes all HCBS for a beneficiary for 1 month. A beneficiary-month may include multiple
services.

                                                      4
    •   selected a simple random sample of 100 beneficiary-months from the sampling frame of
        2,434 beneficiary-months and, for each beneficiary-month:

        o determined whether the beneficiary was assessed by a certified individual to be
          eligible to participate in the TBI waiver program,

        o determined whether TBI waiver program services were provided in accordance with
          an approved plan of care,

        o determined whether the staff members who provided the services met qualification
          and training requirements,

        o determined whether documentation supported the TBI waiver program services
          billed, and

        o identified services that were not provided or documented in accordance with Federal
          and State requirements;

    •   removed from our sample results unallowable and potentially unallowable payments
        associated with substance abuse services in seven beneficiary-months for which
        Belvedere returned funds as part of a voluntary self-disclosure; and

    •   estimated the unallowable and potentially unallowable Federal Medicaid reimbursement
        paid in the total population of 2,434 beneficiary-months.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency claimed Federal Medicaid reimbursement for some TBI waiver program
services provided by Belvedere that did not comply with certain Federal and State requirements.
Of the 100 beneficiary-months in our random sample, the State agency properly claimed
Medicaid reimbursement for all TBI waiver program services during 9 beneficiary-months. The
State agency claimed Medicaid reimbursement for services that were not allowable or were
potentially unallowable for the 91 remaining beneficiary-months. Specifically, services totaling
$92,539 (Federal share) in 64 beneficiary-months did not comply with Federal and State
requirements, and services totaling $123,516 (Federal share) in 35 beneficiary-months may not
have complied with Federal and State requirements. Of these 35 beneficiary-months, 8 also

                                               5
contained services that were unallowable. Of the 64 beneficiary-months with services for which
the State agency improperly claimed Federal Medicaid reimbursement, 15 contained more than
1 deficiency. Appendix C contains a summary of deficiencies, if any, identified for each sampled
beneficiary-month.

Based on our sample results, we estimated that the State agency improperly claimed $1,555,291
in Federal Medicaid reimbursement for TBI waiver program services provided by Belvedere that
did not comply with Federal and State requirements during calendar years 2005 through 2007.
In addition, we estimate that the State agency claimed $2,087,622 in Federal Medicaid
reimbursement for services provided by Belvedere that may not have complied with Federal and
State requirements.

The claims for unallowable and potentially unallowable services were made because (1) the
centers did not ensure and document that all beneficiaries approved for services were assessed by
certified individuals and determined eligible for TBI waiver program services, (2) the State
agency did not ensure that the assessors and screeners properly evaluated beneficiaries for
placement in the TBI waiver program, and (3) Belvedere did not ensure that it documented
services billed and claimed reimbursement only for allowable services.

UNALLOWABLE SERVICES IN THE HOME AND COMMUNITY-BASED SERVICES
WAIVER PROGRAM

Services Provided to Beneficiaries Assessed Not To Qualify for
Nursing Home Level of Care

Pursuant to 42 CFR § 441.302(c), the State agency must provide for an initial evaluation of the
recipient’s need for the level of care that would be provided in an institution unless the individual
receives the HCBS. The regulation further requires periodic reevaluations, at least annually, of
each recipient receiving HCBS to determine whether the recipient continues to need the level of
care provided and would, but for the provision of waiver services, be institutionalized. Pursuant
to the State’s waiver agreement with CMS, to be eligible for the TBI waiver program, a
beneficiary must be assessed to need nursing home level of care. Pursuant to 10 NYCRR
§ 400.12, to meet the requirements for nursing home level of care, beneficiaries must be assessed
to be in 1 of 12 RUG-II groupings that qualify beneficiaries for skilled nursing facility level of
care.

For 54 beneficiary-months, the State agency claimed reimbursement for services provided to
beneficiaries who were assessed by certified individuals to be in one of the four RUG-II
groupings that did not qualify for nursing home level of care. For example, one beneficiary was
assessed at Reduced Physical Functioning A level of care, a RUG-II grouping that did not
qualify for nursing home level of care.

Services Not Provided in Accordance With an Approved Plan of Care

Pursuant to 42 CFR § 441.301(b)(1)(i), HCBS must be furnished under a written plan of care
subject to approval by the State agency. Pursuant to section 4442.6 of CMS’s State Medicaid

                                                 6
Manual, a plan of care must specify the services to be provided, their frequency, and the type of
provider. Pursuant to the State’s waiver agreement with CMS, all waiver services will be
furnished pursuant to a written plan of care, and Federal financial participation will not be
claimed for waiver services that are not included in the individual written plan of care.

For 15 beneficiary-months, the State agency claimed reimbursement for some services that were
not in accordance with an approved plan of care. Specifically, Belvedere provided services in
excess of the number of units allowed in the plan of care or provided services that were not in the
plan of care. For example, although the plan of care for 1 beneficiary allowed for 13 units of
independent living skills services for 1 month, Belvedere billed for 16 units of service that
month.

Services Not Documented

Section 1902(a)(27) of the Act, 42 U.S.C. § 1396a(a)(27), mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary fully
to disclose the extent of the services provided to individuals receiving assistance under a State
plan. Pursuant to Office of Management and Budget Circular A-87, Cost Principles for State,
Local, and Tribal Governments, Att. A, § C.1.j (2 CFR § 225, App. A § C.1.j), costs must be
adequately documented to be allowable under Federal awards. Pursuant to section 2497.1 of the
CMS State Medicaid Manual, Federal financial participation is available only for allowable
actual expenditures made on behalf of eligible recipients for covered services rendered by
certified providers. Expenditures are allowable only to the extent that, when a claim is filed, the
provider has adequate supporting documentation in readily reviewable form to assure that all
applicable Federal requirements have been met.

For five beneficiary-months, the State agency claimed reimbursement for some services that
were not adequately documented. For these services, Belvedere did not maintain service notes to
support the services billed or did not fully document the services billed. For example, for one
beneficiary-month, Belvedere billed for home and community support services for which there
was no documentation of the services performed.

Assessments for Traumatic Brain Injury Waiver Program
Conducted by Uncertified Individuals

Pursuant to section 4442.5 of the CMS State Medicaid Manual, waiver agreements shall include
an assurance by the State agency that it will provide for an evaluation and periodic reevaluations
of the need for the level of care provided in an institution but for the availability of HCBS
services, including a description of the party or parties responsible for the evaluation and
reevaluation and their qualifications. Pursuant to the State’s waiver agreement with CMS, to be
eligible for the TBI waiver program, a beneficiary must be assessed to need nursing home level
of care by individuals who have completed the State agency’s H/C-PRI training and certification
program. 6


6
 The State agency assigns “assessor numbers,” which are required to complete the H/C-PRI to registered nurses
who successfully complete the training and certification program.

                                                        7
For four beneficiary-months, the State agency claimed reimbursement for some services
provided to beneficiaries whose assessments for TBI waiver program eligibility were conducted
by uncertified individuals. The centers did not detect the invalid assessments and, therefore,
approved TBI waiver program services for the beneficiaries.

Assessment for Traumatic Brain Injury Waiver Program Not Documented

Section 1915(c) of the Act and 42 CFR § 441.301(b)(1)(iii) provide that HCBS waiver services
may be provided only to recipients who have been determined would, in the absence of such
services, require the Medicaid covered level of care provided in a hospital, nursing facility, or
intermediate care facility for persons with mental retardation. Pursuant to 42 CFR § 441.302(c),
the State agency must provide for an initial evaluation of the recipient’s need for the level of care
that would be provided in an institution unless the individual receives the HCBS. The
regulations further require at least annual reevaluations of each recipient receiving HCBS.
Pursuant to section 4442.6 of the CMS State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. Pursuant to the State’s waiver agreement with CMS, the TBI service coordinator must
ensure that the beneficiary is assessed at least annually, and the regional resource development
specialist must review the assessment as a requirement for approving the plan of care.

For one beneficiary-month, the State agency claimed reimbursement for some services for which
neither Belvedere nor the associated center could provide documentation of an annual
reevaluation to determine whether TBI waiver program services were needed. Despite the
missing annual reevaluation, the center approved TBI waiver program services for the
beneficiary.

POTENTIALLY UNALLOWABLE SERVICES IN THE
HOME AND COMMUNITY-BASED SERVICES WAIVER PROGRAM

Section 1915(c) of the Act and 42 CFR § 441.301(b)(1)(iii) provide that HCBS waiver services
may be provided only to recipients who have been determined would, in the absence of such
services, require the Medicaid covered level of care provided in a hospital, nursing facility, or
intermediate care facility for persons with mental retardation. Pursuant to 42 CFR § 441.302(c),
the State agency must provide for an initial evaluation of the recipient’s need for the level of care
that would be provided in an institution unless the individual receives the HCBS. The
regulations further require at least annual reevaluations of each recipient receiving HCBS.
Pursuant to section 4442.6 of the CMS State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. Pursuant to the State’s waiver agreement with CMS, the TBI service coordinator must
ensure that the beneficiary is assessed at least annually, and the regional resource development
specialist must review the assessment as a requirement for approving the plan of care.
For 35 beneficiary-months, the State agency claimed reimbursement for some services that may
not have complied with Federal and State requirements. Specifically, the RUG-II groupings for
the beneficiaries were not documented on the H/C-PRIs provided by Belvedere and the centers.
As a result, the associated beneficiaries’ need for nursing home level of care could not be
determined.

                                                 8
CAUSES OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE CLAIMS

The centers did not ensure and document that all beneficiaries approved for services were
assessed by certified individuals to be eligible for TBI waiver program services. Specifically, the
centers did not maintain the State agency’s H/C-PRI and related Screen for each beneficiary to
document the beneficiary’s need for the level of care that would be provided in an institution.
The centers also did not verify that each beneficiary’s need for nursing home level of care was
assessed by an individual who had completed the State agency’s H/C-PRI training and
certification program.

In addition, the State agency did not ensure that the assessors and screeners properly evaluated
beneficiaries for placement in the TBI waiver program. Specifically, beneficiaries who did not
require nursing home level of care and beneficiaries whose need for nursing home level of care
had not been determined were recommended by assessors to participate in the TBI waiver
program. The centers also approved the ineligible and incomplete assessments as part of their
plan-of-care review.

Lastly, Belvedere did not ensure that it documented services billed and claimed reimbursement
only for allowable services. Specifically, for some services, Belvedere did not maintain required
service notes, including the name of the person providing the service; the nature, extent, or units
of service; and the place of service.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,555,291 to the Federal Government;

   •   work with CMS to resolve the claims, totaling $2,087,622, for which Medicaid
       reimbursement may have been unallowable;

   •   require the centers to ensure and document that all beneficiaries approved for services
       have been assessed by certified individuals and are eligible for TBI waiver program
       services;

   •   provide adequate training to assessors on the Federal and State requirements for the TBI
       waiver program; and

   •   require Belvedere to ensure that it documents services billed and claims reimbursement
       only for allowable TBI waiver program services.




                                                 9
STATE AGENCY COMMENTS

In its comments on our draft report, the State agency disagreed with our first recommendation
(financial disallowance), indicated that it would work with CMS to resolve our second
recommendation, and stated that it already had procedures in place to cover our remaining
recommendations. The State agency also disagreed with many elements of our findings and
requested that we provide information that it needed to review some of the claims related to our
first recommendation. Specifically, the State agency indicated that our interpretation of what
constitutes nursing facility level of care determinations did not consider all relevant information.
In addition, the State agency stated that we misinterpreted TBI waiver program requirements for
services provided in accordance with an approved plan of care.

The State agency stated that it was unaware of any Federal or State legislation, regulation, or
policy that disqualifies beneficiaries in four RUG-II groups (Clinically Complex A, Severe
Behavioral A, Reduced Physical Functioning A, and Reduced Physical Functioning B) from
being eligible for nursing facility level of care. The State agency indicated that the Omnibus
Budget Reconciliation Act of 1987 (OBRA ‘87) reclassified all residential health care facilities
(i.e., health-related and skilled nursing facilities) participating in the Medicaid program as
“nursing facilities” governed by a single set of standards and regulations. The State agency also
stated that no RUG-II score would eliminate a beneficiary from nursing home placement.
According to the State agency, these scores are used only to determine rates and to establish a
rate mix to balance nursing facility populations.

In addition, the State agency indicated that the standards to guarantee the health and welfare of
waiver participants are designed to be flexible and responsive to the beneficiaries’ needs;
therefore, providers are obligated to respond to beneficiaries’ changing needs for care in the
community, including flexibility in the provision of authorized service hours.

The State agency’s comments appear in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments on our draft report, we maintain that our findings
and recommendations are valid. We provide a detailed response to the State agency’s comments
on our findings and first recommendation below. With respect to the last three
recommendations, our findings indicate that the procedures described by the State agency are not
adequate to ensure that it claimed reimbursement only for TBI waiver services that comply with
certain Federal and State requirements. We provided the information that the State agency
requested in order to review some of the claims related to our first recommendation.
We agree that OBRA ‘87 reclassified skilled nursing facilities, rehabilitation facilities, and
health-related facilities as nursing facilities. Nevertheless, New York law retained distinctions
between skilled nursing facilities (nursing homes) and health-related facilities. Section 2801 of
the New York Public Health Law defines a “nursing home” as a facility providing nursing care
in addition to lodging, board, and/or health-related services. This is in stark distinction from a
“facility providing health-related service” (also known as a “health-related facility”), which
section 2801 of the New York Public Health Law defines as a facility that provides lodging,

                                                 10
board, and physical care, including the recording of health information, dietary supervision, and
supervised hygienic services. Health-related facilities do not provide nursing care as do nursing
homes under New York law. 7

The State agency’s waiver program agreement with CMS states that the waiver program is for
individuals who, but for the provision of HCBS, would require “nursing facility” level of care.
The State’s TBI Waiver Program Manual, which provides further clarification of definitions and
scope of the HCBS/TBI waiver services, states that, to be eligible for the TBI waiver program, a
beneficiary must be assessed to need a “nursing home” level of care as determined by the
H/C-PRI and Screen. The H/C-PRI and Screen assign patients to 1 of 16 RUG-II categories.
Pursuant to 10 NYCRR § 400.12, patients in four RUG-II categories meet the requirements for
health-related facility level of care. Patients in the other 12 RUG-II categories meet the
requirements for skilled nursing facility level of care. Because health-related facilities are not
the same as nursing homes under New York law, patients in the four RUG-II categories who
require only health-related facility level of care do not need nursing home level of care. 8

We agree that the standards allow for flexibility in response to beneficiaries’ changing needs. In
fact, the approved CMS waiver agreement grants the State agency flexibility in terms of how it
delivers services to TBI recipients. However, the waiver agreement states that the types of
services, duration, and any addendums to such shall be noted in the plans of care. In reviewing
the plans of care, we took into consideration any addendums or notices of decision included in
the beneficiary case file. We did not consider any additional services provided to the beneficiary
unallowable if the services were included in an addendum or notice of decision.




7
 Title 10, § 700.2, of the NYCRR also distinguishes nursing homes, which provide nursing care to patients, from
health-related facilities, which do not.
8
  After we met with representatives of the State to discuss our findings, the State amended 10 NYCRR § 400.12,
effective November 4, 2009, so that patients in the Clinically Complex A, Severe Behavioral A, Reduced Physical
Functioning A, and Reduced Physical Functioning B RUG-II categories meet the requirements for skilled nursing
facility level of care.

                                                       11
APPENDIXES
                                                                                   Page 1 of 2


               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiary-months of service for which Belvedere of Albany, LLC
(Belvedere), received Medicaid reimbursement under New York’s traumatic brain injury (TBI)
waiver program during calendar years 2005 through 2007.

SAMPLING FRAME

The sampling frame was an Access file containing 2,434 beneficiary-months of service totaling
$11,901,954 ($5,950,946 Federal share). The data for beneficiary-months of service under the
New York TBI waiver program were extracted from the New York State Medicaid Management
Information System.

SAMPLE UNIT

The sample unit was a beneficiary-month during calendar years 2005 through 2007 for which
Belvedere claimed Medicaid reimbursement for services under the TBI waiver program. A
beneficiary-month is defined as all home and community-based services for one beneficiary for
1 month.

SAMPLE DESIGN

We used a simple random sample to review Medicaid payments made to Belvedere on behalf of
beneficiaries enrolled in the New York TBI waiver program.

SAMPLE SIZE

We selected a sample of 100 beneficiary-months of service.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services statistical software,
RAT-STATS 2007. We used the random number generator for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the beneficiary-months of service in our sampling frame. After
generating 100 random numbers, we selected the corresponding frame items for our sample. We
then created a list of 100 sampled items.
                                                                                     Page 2 of 2


ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of the 90-percent
confidence interval to estimate the overpayment associated with the unallowable and potentially
unallowable services in the beneficiary-months.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES

UNALLOWABLE SERVICES IN THE HOME AND COMMUNITY-BASED SERVICES
WAIVER PROGRAM

                                Sample Details and Results

                                                           No. of           Value of
                Value of                     Value of    Beneficiary-      Unallowable
Beneficiary-     Frame                        Sample     Months with        Services
 Months in      (Federal        Sample       (Federal    Unallowable        (Federal
  Frame          Share)          Size         Share)      Services           Share)
   2,434       $5,950,946         100        $227,670        64              $92,539

                       Estimated Value of Unallowable Services
                (Limits Calculated for a 90-Percent Confidence Interval)

                            Point estimate        $2,252,388
                             Lower limit           1,555,291
                             Upper limit           2,949,484


POTENTIALLY UNALLOWABLE SERVICES IN THE HOME AND
COMMUNITY-BASED SERVICES WAIVER PROGRAM

                                Sample Details and Results

                                                            No. of           Value of
                                                         Beneficiary-       Potentially
                Value of                     Value of    Months with       Unallowable
Beneficiary-     Frame                        Sample      Potentially        Services
 Months in      (Federal        Sample       (Federal    Unallowable         (Federal
  Frame          Share)          Size         Share)       Services           Share)
   2,434       $5,950,946         100        $227,670         35             $123,516


                 Estimated Value of Potentially Unallowable Services
                (Limits Calculated for a 90-Percent Confidence Interval)

                            Point estimate        $3,006,376
                             Lower limit           2,087,622
                             Upper limit           3,925,129
                                                                                       Page 1 of 3
        APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                          BENEFICIARY-MONTH

                                           Deficiencies
1   Services provided to beneficiaries assessed not to qualify for nursing home level of care
2   Services not provided in accordance with an approved plan of care
3   Services not documented
4   Assessments for TBI waiver program conducted by uncertified individuals
5   Assessment for TBI waiver program not documented

    Office of Inspector General Review Determinations for Sampled Beneficiary-Months


Sample Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
     Month                1            2            3            4            5        Deficiencies
         1                                                                                  0
         2                X                                                                 1
         3                X                                                                 1
         4                                          X                                       1
         5                X                                                                 1
         6                                                                                  0
         7                             X                                                    1
         8                X                                                                 1
         9                                                                                  0
        10                                                                                  0
        11                X                                                                 1
        12                X                                                                 1
        13                X            X            X                                       3
        14                X            X                                                    2
        15                             X                                                    1
        16                                                                                  0
        17                X            X                                                    2
        18                                                                                  0
        19                                                                                  0
        20                X                                                                 1
        21                X                                                                 1
        22                                                                                  0
        23                X                                                                 1
        24                                                                                  0
        25                X                                                                 1
        26                X            X                                                    2
        27                X                                                                 1
        28                             X                                                    1
                                                                                       Page 2 of 3

Sample Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
     Month                1            2            3            4            5        Deficiencies
        29                X                                                                 1
        30                X                                                                 1
        31                                                                                  0
        32                X                         X                                       2
        33                X            X                                                    2
        34                X            X                                                    2
        35                X                                                                 1
        36                                                                                  0
        37                X                                                                 1
        38                X                                                                 1
        39                X                                                                 1
        40                                                                                  0
        41                                                                                  0
        42                X                                      X                          2
        43                X                                                                 1
        44                                                                                  0
        45                X                         X                                       2
        46                X                                                                 1
        47                             X                                                    1
        48                             X                                                    1
        49                             X                                                    1
        50                                                                                  0
        51                X                                                                 1
        52                                                                                  0
        53                                                                                  0
        54                X                                                                 1
        55                                                                                  0
        56                X                                                                 1
        57                X                                                                 1
        58                X                                                                 1
        59                                                                                  0
        60                X                                                                 1
        61                X                                      X                          2
        62                X                                                                 1
        63                X                                                                 1
        64                X                                                                 1
        65                                                                    X             1
        66                                                                                  0
        67                                                                                  0
                                                                                       Page 3 of 3

Sample Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
     Month                1            2            3            4            5        Deficiencies
        68                                                                                  0
        69                X                                                                 1
        70                X                                                                 1
        71                X                                                                 1
        72                                                                                  0
        73                                                                                  0
        74                                                                                  0
        75                X                                                                 1
        76                X                                      X                          2
        77                X                                                                 1
        78                                                                                  0
        79                X                                                                 1
        80                                                                                  0
        81                             X                                                    1
        82                                                                                  0
        83                X                                                                 1
        84                X            X                                                    2
        85                X                         X                                       2
        86                X                                                                 1
        87                X                                                                 1
        88                X                                                                 1
        89                X                                                                 1
        90                X            X                                                    2
        91                X                                                                 1
        92                                                                                  0
        93                                                                                  0
        94                                                                                  0
        95                                                                                  0
        96                                                                                  0
        97                                                                                  0
        98                                                                                  0
        99                                                                                  0
       100                                                       X                          1
Category Totals          54           15            5            4            1            79

    64 Beneficiary-Months in Error
                                                                                                                                 Page 1 of7


                    APPENDIX D: STATE AGENCY COMMENTS 





                               STATE OF NEW YORK
                               DEPARTMENT OF HEALTH
                              Corn.,!! T.,.....,.,. ThII G""emo< Nej"""A.   Rocke~lIef   Empire Siale Plaza Albany. New YorI< 12237

Richard F. 0 ..i005. M.D.                                                                       James W. Clyne, Jr.
Commlssiouer                                                                                    ExtJCl.lwt;J DfJpuly Commissionflr



                                                                      October 13. 20 t 0

     James P. Edcrt
     Regional Inspector Gcncr31 for Auctil Services
     Dcp~rtl1lenl   ofHcallh and lI ufllun Services
     Rc~i()n   JJ
     Jacob Jayitt: Federal Building
     26 Federal Plata
     New York. New York 10278

                                                                      Ref. No. A-02-09·01/106
     Dcar M r. Edert:

               Encl osed arc th e New York State Department of Health's comments on the Department
     of Health nnd Human Servi ces, Office of Inspector General's draft audit TefXlrt A -02-09-0 1006
     on "Rev iew of Med icai d Paymenl~ for Services l' ro vidL'<i Under Ne w York 's Sectio n 19 15 (c)
     Troumatic Brolin Injury Waiver al Belvedere of Albany. LLC !'rom January I. 2005. Through
     December 3 1. 2007."                                                        .

               'n lank you for the opponllnily to conUllenl.


                                                                      Sincerely,




                                                                                 Cl yne , Jr.
                                                                      J 1lrllCS W .
                                                                      E)(cCUlivc Deput y Com m issioner
     Enclo~ure


    cc:        Roben W. Rccd
               Donn"   FreS\;~lorc
               James Shed",n
               Mark L. Kissin~cr
               Diane Christensen
               Dennis Wend",11
               Stephen Abbott
               Stephen F. LuCnsse
               Irene M yron
               Ronnld FnrreU
               Mary Elwell
               Lynn Oliver
                                                                                                       Page 2 of7




                New York State Department of Health 's 

                             Comme nts on the 

               Department of Health and Human Services 

                      Office of Inspector General's 

                  Draft Audit Rellort A-02-09-0 1006 on 

      " Review of Medicaid Ilaymcnts for S~rvices Provided Under 

      New York' s Section 19J5(c) Traumatic Brain Injury Waiver 

                   at Bcll'ederc of Albany, LLC From 

             January 1,2005, Through December 31, 2007" 



T ho:: followi ng arc Ihc New York Stale Department of Hculth's (Department) comments in
response to the Department of Ilcalth and I-Iuman Services; Otlice of Inspector General's (DIG)
draft audit report A-02-09-01 DOG on "Review of Medicaid J'aymcnts for Sen-ices Provided
Under New York's Section 19J5(c) Traumatic Brain Injury W<li vcr at Bel vedere o f Albany, LLC
From January 1,2005, Through December 3 1, 2007."

R ccommcntilltion # 1:

The State :lgcncy should refund $ 1,555.291 to thc Federal government.

Re~ pon se   # 1:

The Department does not agrec that it should refund $1.555.291 to the Fed.:rnl government, as its
review of th.: audit findings' documentation and associated case records det.:nnined that 0 10 did
not accurately interpret what constitutes nursing facility level of care detenninations.

OIO's audit sample consisted of 100 randoml y selected beneficiary-months from amongst thc
2.434 bcncfici:lry-months in the audit period during which TBI waiver prognilll services were
reim bursed. DIG 's review found that the Department claimed unallowahle services in 64 of the
100 beneficiary-months in the audit sample (which the Department strongly disputes). 0 10
extrapolated the $92,539 reimbursed during thcse 64 beneficiary-months over the entire claims
un iverse to conclude that the Department claimed SI.555 .291 in unallowable reimbursement.
OIG identified five reasons for the no n+compliance in the 64 beneficiary-months, which are
listed below along wi th the Department's response to each.

1. 	 Services Pro~';ded 10 Belteficiaries Assessed Not 10 Qualify for N llrsilff( Fllcility Lel'eiof
   Care.

   OIG found that for 54 o f the beneficiary-months in the audit sample, thc Department claimed
   reimbursement for services provided 10 benefiei:lries who were assessed by certified
   individuals to be in one of the four RUG-ll groupings th:lt did not qualify for nursing facility
   level of care. OIG supports this findin g with its statement, "Pursuant to Title 10 § 400.12 of
   the.New York Compilation of Codes, Rul es, & Regulations (NYCCRR), to meet the
   requirements for nursing facility level of care, beneficiaries must be assessed to be in 1 of 12
                                                                                                        Page 3 of7




                                                2
 RUG-II groupings that qualify beneficiaries for ski/{ed {emphasis added} nursing fllcility
 level of carc." TIlt: four RUG-II groupings which OIG interprets as not qualifying for
 nursing facil ity level of care are addrc:ssed in Subpart 3 of Title 10 § 400. 12: "Patients in the
 followi ng resource utilization groups [the four RUG-ll groups which DIG contends did not
 qualify for nursing facility level of care] meet the requirements for ilealth-rated/acility
 lem phasis addedJ Je~'el of care." Ute Department is unaware of any federal       or State
 legislation, regulation or policy that disqualifies beneficiaries in these four RUG-II groups
 from nursingjadlity leH!l o/care.

 D IG's interpretation ofwhal constitutes nursing facil ity level o f care determinations did not
 consider all re levant info nnatio n, includi ng II federal OBRA '87 change implemented
 subsequent to promulgati on of the New York State Regulatio n cited by 0 10 . As II result,thc
 Department contends Ihal bene fi ciaries assigned to each of the four RUG-II groupi ngs whic h
 O IG interpreted as not qual ifying for the TBI wlliver program did, in fact, meet ...."8i..er
 eligibility req uirements.

 New York: State Local Commissioners Memorandum Transmittal # 9O-LCM-177 dated
October 3D, 1990, infonned a ll local social services districts, " Effective October I , 1990, the
 federal Health Care Financing Agency \vill reclassify all residen tial health care facilities (Le.,
 health related and skilled nursing faciliti es) participating in the Medicaid program as simply
' nursing facilities ' (NFs), governed by a single set of standards and regulatio ns ..." This was
confinned in II memorandum dated Jan uary 31, 1991 , advising that New York State has
implemented a single level o f cert ification for nursing homes in New York: and a single set of
requirements applicable to all suc h faci lities. Further, Department Memorandums 9043 and
90-47 dated September 27, 1990 and October 17, 1990, respectively, informed residential
health care faci lity (i.e., nursing home) operators o f tbe d imination of the distinction between
II skilled nursing facility and II hea lth related facility. With this October 1990 change, the
RUG-II groupings relative to nursing facility level ofcare incorporated those for skilled
nursing fac ilities and health-related facili ties. Support for this is found at 42 CFR 483.5(a)
which defines " facil ity" to mean a "skilled nursing facility o r a nursing facil ity."

Additionally, it is impo rtant forOIG to recognize thall here is no RUG- II score thai would
eliminate a beneficiary from nursing home placement. Scores are utilized only for
determining rates and to establish a rate mix so that a facil ity has a balanced popUlation wilb
varying service/care needs; they have no impac t on whether services are e ligible for payment
under the TBI .....'!liver program. This is confirmed in the training documentation utilized by
the State's Qual ity Impro\'ement Organization contractor, Island Peer Review Organization
( IPRO), whic h states that the 16 utiliz.1tion gro ups are all defined differently and arc util ized
as indicators of patient needs.

F inally, OIG notes that Ncw York Stale has considerable flexibility in designing and
operating its Medicaid program, olthough it must comply with Federal requirements. The
Department agrees, and while its Regulations do not specifically address nursing facil ity
level of care determinations for the TBI waiver program, the Department strongly maintains
that it has adhered to the overarehiflg Federallcgislation resulting from OBRA '87 which
combined skilled nursi ng facility and health related facility into a single level of care.
                                                                                                    Page 4 of7




                                                3


2. Services Not Provided ill Accordallce With all Approved Plall of Care

   OIG found that for 15 of the beneficiary-months in the audit sample, services provided were
   in excess of the number of units allowed in the plan of care or were not included in the plan
   of care. OIG supports this finding with an example where the plan of care allowed for 13
   units of independent living ski lls services, while the provider billed for 16 units.

   Department review of the cases associated with this finding detennined tl,at OIG
   misinterpreted the TBI waiver program requirements. Consistent with the TBl waiver
   application approved by CMS, standards to guarantee the health and welfare of waiver
   participants are designed to be flexible and responsive to beneficiaries' needs.
   Concomitantly, providers are obligated to respond to beneficiaries' changing needs for care
   in the commw1ity. This includes flexibility in the provision of authorized service hours.

   The TBI Waiver Program Manual utilized prior to 2006 along with various associated
   docwnentation provide for the modification of the billable units of service. The Manual
   states, "The HCBSrrBI waiver provides a source of funding for flexible services, and wi ll be
   administered in a spirit of cooperation and partnership. The providers of waiver services arc
   a vi tal part of this effort ... " This reflects a period when services were identified in the
   narrative of the service plan and in a "projected schedule." In addition, the Notice of
   Decision identified services as being "authorized" or "reauthorized" for specific time periods
   without requiring specification of the number of units of services approved. Funher, the
   Addendum to an Existing Service Plan also provided for modification of the billable units of
   service (and cost), as evidenced by it request ing the following information: "Please describe
   all significant functional and/or psycho-social changes that have occurred that are the basis
   for the addendum."

   Cun-ently, the Department approves utilization of services based on total annual units fo cthe
   purpose of cost estimates, according to the proposed schedule and grid within the service
   plan. Monthly, biweekly, and weekJy estimates accommodate flexibility in service delivery.
   Service accommodations arc made in order to be responsive to the beneficiary's changing
   needs or other issues such as limi ted attention span, reduced stamina and fatigue or to
   accommodate unexpected illness. Providers are expected to document the reasons for each
   schedule accommodation in their notes. Under this approach, units of services may be
   approved that are not immediately utilized and/or units may be utilized sooner than planned,
   with in the confines of the total annual units approved. However, the total approved annual
   units are not allowed to increase without a formal amendment to the service plan.

3. Services Not Documented

   OlG found that for 5 of the beneficiary-months in the aud it sample, the provider did not
   maintain service notes to support the services billed or did not fully documentlhe services
   billed. The Department requests OlG to identify the Transaction Control Number ("TCN"
   also known as Claim Reference Number) for each claim associated with this finding, whi ch
   the Department requires to comp lete its review.
                                                                                                        Page 5 of 7




                                                  4

   It is relevant to nOle that the Department's monthly Medicaid Update provider publication for
   January 200.5 reinforced the necessity for providers to support their claims with a record of
   the services provided. Providers were advised that documentation maintai ned should
   minimally include: benefi ciary name, dllte-of-scrvicc, start and end time for each session,
   description of the activities performed and the service plan goals worked on and progress
   towards attaining those goals.

4. AssCSl'ments!or TBI    WQj~'er   Program Conducted by U"certified h ,dividlla/s

   DIG found that for 4 of the benefi ciary.months in the audit sample, reimbursement was
   claimed for services provided to beneficiaries whose assessments for TBI waiver program
   eligibility .....ere conducted by uncertified individuals.

   Centers are required to document, for each beneficiary approved for services, thaI a certified
   individual performed the assessment by verifying that the assessor has signed the proper
   documents and has furnished thei r assessment certification number. Certification credentials
   arc issued by the State's Quality Improvement Organization contractor, currently IPRO. The
   assessment service agency is responsible for verifying that its employed assessors adhere to
   the required certification standard.<;. Only licensed Registered Nurses may be certified to
   pcrfonn assessments which, as medical professionals, must perfonn the assessments in
   accordance with accepted standards of practice. Centers are no t, and should not be, expected
   to ,,·erify the validity of the assessment or the credentials of the assessor, but are expected to
   confinn thc presence orthe assessor's signature and the assessment certification nwnber.

   The assessors whicb 0[0 found to 'be uncertified may have been credentialed by II previous
   Quality Improvement Organization contractor and thererore do nOt appear on the file of
   certified individuals maintained by lPRO. although the Department could possibly verify
   certification through State Education Department records or other means. OIG to requested
   to furnish identifying infonnation on the specific assessors associated with this finding, and
   the Department will rol low-up on the certification status ofeach.

5. Assessment/or Traumatic Brain Injury Waiver Program Not Documented

   010 found that ror one beneficiary-month in the audit sample, reimbursement was claimed
   for services for which docwnentation or an annual reevaluation was missing. The
   [)e;partment is following-up with the provider and will furnish 010 the missing
   docwnentation should it be located.

   It is relcvant to note that in 2009, Centers were trained on the imponancc of ensuring that
   services do not continue without a timely and valid nUISing raeility level or care
   redetenninaiion. Funhermore, the Department recently implemented a new database ror
   tracki ng compliance with annual reevaluations. Case record inronnation is electronically
   coliL'Cted by the Centers and the Department, with the data providing a statewide perspective
   of beneficiary demographics including, but nOllimited to, identified services, level ofcare
   and correlating service authorizations.
                                                                                                     Page 6 of7




                                                   5


Recommenda tion #2:

The St.'I!c agency should work with eMS to resolve the claims, totaling $2,087.622, for which
Medicaid reimbursement may have been unallowable.

Response #2:

0 10 found thai for 35 of Ihe bcneficiLlry.momhs in the audi t sample, (he beneficiaries' RUG- Il
groupings were not documented on the Hospital and Conul,lunity Patient Review Instrument and.
as a result, the associated beneficia ries' need for nursing facility level of care CQuld not be
dete rmined. DIG extrapolated the $123,516 re imbursed during these 35 beneficiary-months over
the entire claims universe \0 conclude that the Oe]}anmcnt claimed S2,087.622 in potentially
unallowable reimbursement. However, the Department is not aware oflmy sland!lrd, including
those applied by oro in Ihis audit as identified in the report, that speeifi!;ally Jequires the
presence of thc RUG-II grouping on the i iospitai and Communi ty Patient Review Instmm!;nt.
While it is the Department's position that thc absence of this infonnation o n the form does not
invalidate the assessment, it wi ll work with CMS 10 resolve the recommendation.

Rccummcnilatiun #3 :

The State agcney should require the Centers to ensure and document thaI all beneficiaries
approvcd for services have been assessed by certified individuals und ure digible for TOI wai\'cr
program servIces.

Iks pol1se #3:

The Department does req uire the Centers 10 ensure and documen t that all beneficiaries approved
for services were assessed by ecrtified individuals by verifying the presence of the assessor's
signature and assessment certification number. This is further disc ussed in section 4 of Responsc
#1 above.

Recummcnilatiol1 #4:

The State agency sho ul d provide adeq uate traini ng 10 assessors on Ihe Fcd::r:.LI and State
req uirements for the TBI waiver program.

Rcsllonse #4:

The Department contends that it already provides for the udequatc training of assessors through
its Q uality Improvemcnt Organi7..ation contractor. TIle current contractor, lPRO, has been
provid ing this service since 2004, predating the audit period.

In evaluating this OIG rccommendaLion, tho;: Department recognized that rathcr than assessor
training, the underlying issue may actually relate to the content orthc assessment instmment
util ized to determine leve l orcare, and hencc, T BI waiver program participation. At the time
                                                                                                   Page 7 of7




                                                6
that the assessment instrument was adopted as the tool by which to establish nursing home level
of care, home and community-based services were in the early stages of development. The
Department will work with IPRO to evaluate whether updates are needed to the assessment
instrument and training materials to ensure they reflect the evolution of community-based long
tenn care services and alternatives to institutional care.

R ecommendation #5:

The State agency should require the provider to ensure it documents services billed and claims
reimbursement only for allowable TBI waiver program services.

Recommendation #5:

The Department does require all providers to document services billed and to claim
reimbursement only for allowable TBI waiver program services, as documented in the Billing
Manual and the Department's Medicaid Update provider publication. The Department will
nonetheless reinforce the importance of this with the provider audited as well as all other TBI
waiver program providers. The Department will additionally enhance its oversight and
monitoring of the audited provider and direct that it implement internal control improvements to
address the issues identified in this audit.
